          U.S. Department of Energy
          Office of Inspector General
          Office of Audits and Inspections




Inspection Report

Property Accountability and Protection
of Federal Sensitive Unclassified
Information Under the Cooperative
Agreement with the Incorporated
County of Los Alamos



DOE/IG-0859                        February 2012
                      8
                                 Department of Energy
                                    Washington, DC 20585

                                        February 17, 2012


MEMORANDUM FOR THE SECRETARY


FROM                     Gregory H. Friedman
                         Inspector General

SUBJECT:                 INFORMATION: Inspection Report on "Property Accountability and
                         Protection of Federal Sensitive Unclassified Information Under the
                         Cooperative Agreement with the Incorporated County of Los Alamos"

BACKGROUND

On September 30, 2008, the National Nuclear Security Administration entered into a 5-year
Cooperative Agreement with the County of Los Alamos, New Mexico. The general intent of the
Cooperative Agreement, with a cost per year to the Federal government averaging approximately
$16 million, was to provide financial support, equipment, services and the use of fire station
facilities to the County in return for Los Alamos County Fire Department services. Under the
Cooperative Agreement, the Fire Department was to provide an enhanced level of services to
support the Department of Energy's Los Alamos National Laboratory. These services include
advanced nuclear grade industrial fire suppression, advanced emergency medical services, rescue
services and hazardous materials first responder operational services. The Cooperative
Agreement contains provisions for the management of Federally-owned personal property
provided to the Fire Department by NNSA. The Business Services Division of the NNSA
Albuquerque Complex in Albuquerque, New Mexico, has contracting oversight of the
Cooperative Agreement, while the Los Alamos Site Office is responsible for day-to-day
administration.

In December 2010, the Office of Inspector General received a complaint alleging that Federal
government property, including computers, was missing from the Fire Department. During our
initial evaluation of this complaint, we also became aware that Sensitive Unclassified Information
provided to the Fire Department by Los Alamos may not have been adequately protected.
Therefore, we initiated this inspection to determine if Federally-owned personal property under
the Cooperative Agreement was adequately managed.

RESULTS OF INSPECTION

We substantiated the allegation that property, including computers, was missing. Despite
Department of Energy requirements, effective processes and procedures were not in place to
ensure the proper control and accountability of Federally-owned personal property in possession
of the Fire Department. Specifically, the Fire Department had not:

   •   Reported lost or stolen items to Los Alamos, as required. A 2010 inventory revealed that,
       among other property, 9 computers, 4 cameras, a video projector and 40 radios were
                                                2


       missing. However, the items missing were never reported nor were the losses ever
       investigated. Also, actions were not taken to determine financial responsibility for the
       missing property;

   •   Maintained an up-to-date listing of all Federally-owned personal property in the custody
       of the County; and,

   •   Always properly identified Federally-owned personal property at the time of acquisition
       or ensured the proper disposal of excess property.

These problems occurred, in part, because the Los Alamos Site Office did not ensure that the
property management provisions, which were part of the Cooperative Agreement, had been
effectively implemented. In addition, the County did not manage its Federally-owned personal
property in a manner consistent with the requirements of the Cooperative Agreement. Notably,
the Fire Department did not always implement County directives designed to ensure the proper
control and accountability of Federally-owned personal property in its possession. As a
consequence of this environment, Federally-owned personal property was not adequately
safeguarded against misuse, theft or misappropriation.

During the course of our inspection, concerns were raised that Sensitive Unclassified
Information provided to the Fire Department by the Site Office may not have been adequately
protected. We added this issue to the scope of our review. We found that the Fire Department
may not have adequately protected Sensitive Unclassified Information in its possession. Federal
officials were aware of cyber security weaknesses related to the protection of Sensitive
Unclassified Information provided to the County. However, in spite of specific suggestions to do
so, the Site Office did not require the Fire Department to strengthen protective measures.

This issue notwithstanding, we could not reach a definitive conclusion regarding the overall level
of protection for Sensitive Unclassified Information which was in the hands of the Fire
Department. We did note, however, that NNSA had not ensured that all requisite provisions for
cyber security were incorporated into the Cooperative Agreement. As a consequence, these
problems created an environment where Sensitive Unclassified Information provided to the
County may be subject to loss or compromise.

To address these issues, we made recommendations designed to: 1) help improve the control and
accountability of Federally-owned personal property in possession of the County; and, 2)
establish requirements in the Cooperative Agreement to address the protection of Sensitive
Unclassified Information.

Also, during this inspection, we identified other matters (see Appendix 1) relating to the misuse
of Federally-owned personal property and the resolution of questioned costs. To address these
issues, we made suggestions to assure the proper use of Federally-owned personal property and
the timely resolution of questioned costs.
                                               3


MANAGEMENT REACTION

Management generally agreed with the intent of the report findings and recommendations.
Management stated that NNSA will start negotiations to amend the Cooperative Agreement to
ensure that the recommendations are implemented. However, management asserted that NNSA
did not have the specific authority to direct or enforce compliance with the provisions in the
Cooperative Agreement and requested that we delete or rewrite certain recommendations to
reflect the potentially limited authorities inherent in this type of agreement.

Contrary to management's assertion, Title 2, Code of Federal Regulations, Grants and
Agreements, provides the authority for NNSA to enforce this type of agreement with specific
remedies for noncompliance. Nevertheless, where appropriate, we modified several
recommendations to address management's comments. Management's comments and our
response are summarized and more fully discussed in the body of the report. Management's
formal comments are included in their entirety in Appendix 3.


Attachment

cc:   Deputy Secretary
      Associate Deputy Secretary
      Administrator, National Nuclear Security Administration
      Chief of Staff
REPORT ON PROPERTY ACCOUNTABILITY AND PROTECTION OF
FEDERAL SENSITIVE UNCLASSIFIED INFORMATION UNDER THE
COOPERATIVE AGREEMENT WITH THE INCORPORATED COUNTY
OF LOS ALAMOS


TABLE OF
CONTENTS


Management of Federally-Owned Personal Property and Protection of Federal Sensitive
Unclassified Information________________________________________________________

Details of Finding                                                                                                                        1

Recommendations                                                                                                                           8

Management Comments                                                                                                                       9

Inspector Comments                                                                                                                        10


Appendices

1. Other Matters/Suggested Actions                                                                                                        11

2. Objective, Scope and Methodology ...................................................................................                   14

3. Management Comments ....................................................................................................               16

4. Prior Reports ......................................................................................................................   18
PROPERTY ACCOUNTABILITY AND PROTECTION OF FEDERAL
SENSITIVE UNCLASSIFIED INFORMATION UNDER THE
COOPERATIVE AGREEMENT WITH THE INCORPORATED COUNTY
OF LOS ALAMOS

MANAGEMENT OF     We substantiated the allegation that property, including computers,
FEDERALLY-OWNED   was missing. Despite Department of Energy (Department or
PERSONAL          DOE) requirements, effective processes and procedures were not
PROPERTY          in place to ensure the proper control and accountability of
                  Federally-owned personal property in possession of the County of
                  Los Alamos Fire Department (Fire Department). The Cooperative
                  Agreement stated that Federally-owned personal property shall be
                  managed in accordance with Title 10, Code of Federal Regulations
                  (CFR). Part 600.232 of the CFR, Financial Assistance Rules,
                  Equipment, requires that, in the event a grantee is provided
                  Federally-owned equipment, the grantee is to manage the
                  equipment in accordance with Federal agency rules and
                  procedures. In this case, the applicable Federal agency rules and
                  procedures are found in DOE Order 580.1, Department of Energy
                  Personal Property Management Program. Specifically, the Fire
                  Department had not:

                       •   Reported lost or stolen items to Los Alamos National
                           Laboratory (Los Alamos), as required. A 2010 inventory
                           revealed that, among other property, 9 computers, 4
                           cameras, a video projector and 40 radios were missing.
                           However, the items missing were never reported nor were
                           the losses ever investigated. Also, actions were not taken
                           to determine financial responsibility for the missing
                           property;

                       •   Maintained an up-to-date listing of all Federally-owned
                           personal property in the custody of the Incorporated
                           County of Los Alamos (County); and,

                       •   Always properly identified Federally-owned personal
                           property at the time of acquisition or ensured the proper
                           disposal of excess property.

Reporting Lost    The Fire Department had not reported lost or stolen items to Los
or Stolen Items   Alamos, as required. During the 2010 inventory of Federally-
                  owned personal property in its possession, the Fire Department
                  could not account for 60 of the 566 items inventoried, including
                  9 computers, 4 cameras, a video projector and 40 radios. As
                  outlined in the terms and conditions of the Cooperative Agreement
                  through Title 10, CFR, Part 600.232, the County is required to
                  follow DOE Order 580.1. DOE Order 580.1 requires, among other
                  things: establishing responsibility for determining possible


Page 1                                                            Details of Finding
                    financial liability; and reporting, documenting and investigating all
                    instances of lost, damaged and destroyed personal property. Under
                    the Cooperative Agreement, the Fire Department is required to
                    coordinate with the Los Alamos Property Administrator within
                    48 hours after discovering that Federally-owned personal property
                    is lost, stolen or damaged.

                    Consistent with DOE Order 580.1 and the Cooperative Agreement,
                    the County developed a Fire Chief Directive on Lost, Stolen, or
                    Damaged Personal Government Owned Property. This Directive
                    required that the property user, as soon as possible, but no later
                    than 24 hours after discovering a loss, theft or damage to property,
                    prepare a Lost, Stolen, or Damaged Property (LSDP) form. This
                    form was intended to report the date and circumstances
                    surrounding an incident of lost, stolen or damaged property, and
                    provide a summary of the supervisor's investigation and
                    recommendation for appropriate action. However, when we
                    requested copies of LSDP forms, a Fire Department official told us
                    that no forms had been prepared. As a result, the Fire Department
                    could not substantiate, and we could not independently determine,
                    that the required investigation was conducted or documented to
                    determine the disposition of the "unaccounted for" items, or that
                    liability was established.

                    Our finding was consistent with a National Nuclear Security
                    Administration (NNSA) validation review of the 2010 inventory of
                    Federally-owned personal property maintained by the Fire
                    Department. In the validation report, NNSA stated that the Fire
                    Department should comply with the provisions of Appendix D to
                    the Cooperative Agreement, Personal Property Management Plan
                    for Federally-Owned Personal Property, in reporting "unlocated"
                    items. NNSA further stated that the Fire Department's Property
                    Management Plan (Plan) warrants revision as it does not discuss
                    several aspects of a valid Plan. Also, the validation report
                    concluded that the Fire Department's property accountability rate
                    (by value) is 94.1 percent, and was "far below acceptable Federal
                    government standards."

Listing of          The Fire Department had not maintained a complete and up-to-date
Federally-Owned     listing of all Federally-owned personal property in the custody of
Personal Property   the County. DOE Order 580.1 requires that entities with property
                    management responsibilities establish and maintain individual
                    property control records. Under the Cooperative Agreement, the
                    Fire Department was required to provide information to Los
                    Alamos on its Federally-owned personal property and Los Alamos
                    was required to establish and maintain inventory records



Page 2                                                               Details of Finding
                     using the Los Alamos property management database. However,
                     the intent of DOE Order 580.1 for establishing and maintaining
                     property control records was not met. Also, we were not able to
                     obtain a complete and up-to-date listing of all Federally-owned
                     personal property in the custody of the County.

                     Specifically, the Cooperative Agreement defines Federally-owned
                     personal property as Federally-owned vehicles and equipment
                     identified in Appendix B, Listing of Federally-Owned Vehicles and
                     Equipment. However, we determined that a large number of items
                     were missing from Appendix B. The initial Appendix included in
                     the September 2008 Cooperative Agreement identified 92 property
                     items. In November 2009, the Appendix was updated for the only
                     time to include 459 property items. Conversely, the 2010
                     inventory of the Fire Department contained 566 property items
                     based on information identified in a Los Alamos property database.
                     A comparison of the information contained in the property
                     database with the information contained in Appendix B revealed
                     138 items that were not listed in the Appendix and 31 items listed
                     in the Appendix that were not listed in the property database.

Identification and   Contrary to the Cooperative Agreement, we found that the Fire
Disposal of Excess   Department had not always properly identified Federally-owned
Federally-Owned      personal property at the time of acquisition and had not ensured the
Personal Property    proper disposal of excess property. The Cooperative Agreement
                     required the Fire Department to notify NNSA through the Los
                     Alamos Property Administrator when Federally-owned personal
                     property was received and excessed.

                              Identification of Federally-Owned Personal Property

                     The Fire Department had not implemented processes to ensure that
                     all personal property acquired using Federal funds was properly
                     identified. The Cooperative Agreement required the Fire
                     Department to notify NNSA through the Los Alamos Property
                     Administrator when Federally-owned personal property was
                     received. It also required the Fire Department to ensure that
                     Federally-owned personal property was properly accounted for
                     from the point of acquisition through disposal. In this regard, the
                     Fire Department was required to bar code Federally-owned
                     personal property listed in Appendix B of the Cooperative
                     Agreement. However, we found examples of Federally-owned
                     personal property that did not have bar code labels and were not
                     listed in Appendix B. Specifically, the Appendix listed six
                     ambulances. Each ambulance should have been equipped with a
                     gurney, a breathing machine and a defibrillator that were



Page 3                                                               Details of Finding
         appropriately marked as Federally-owned personal property.
         However, the Appendix only listed three gurneys, three breathing
         machines and five defibrillators.

         In addition, when notifying NNSA about the acquisition of
         Federally-owned personal property, the Fire Department Property
         Administrator was required to provide Los Alamos the following
         information: acquisition document number and date; asset type; bar
         code number (identifier); description; manufacturer; model number;
         serial number; acquisition value; organization code; and,
         location. The Fire Department has a Property Data Worksheet that
         captures the required information that was to be provided to Los
         Alamos.

         However, we were unable to independently verify the effectiveness
         of this process. Specifically, the Cooperative Agreement requires
         the Fire Department to attach "appropriate supporting
         documentation" with monthly invoices submitted to NNSA for
         reimbursement of direct costs for items such as equipment,
         including personal property. These invoices did not always contain
         appropriate supporting documentation on the purchase of newly
         acquired Federally-owned personal property. For example,
         manufacturer, model and serial numbers were sometimes missing
         from the invoices. Also, the Fire Department used credit cards to
         acquire property items, but the documentation only identified
         "VISA" and the dollar amount of the purchase.

                 Disposal of Excess Federally-Owned Personal Property

         The Fire Department had not ensured the proper disposal of excess
         property. Under the Cooperative Agreement, employees with
         Federally-owned personal property that needed to be salvaged or
         destroyed were required to notify the Fire Department Property
         Administrator. The Fire Department was then required to dispose
         of excess Federally-owned personal property through Los Alamos
         excess, disposition, recycle or hazardous waste streams. In
         addition, the Fire Department Property Administrator was required
         to complete an Excess/Salvage Equipment Request form to initiate
         the disposal.

         However, the Fire Department did not provide a comprehensive and
         accurate record for the disposition of excessed Federally-owned
         personal property. For example, as previously stated, the nine
         computers that were "unaccounted for" from the 2010 inventory
         were not reported as lost or stolen within 48 hours as required by
         the Cooperative Agreement, thereby indicating that this equipment
         had been excessed. When we requested copies of the Fire


Page 4                                                 Details of Finding
                    Department's Excess/Salvage Equipment Request forms, the Fire
                    Department could not provide the forms for the nine computers.

                    In addition, there were inconsistencies between the Fire
                    Department and Los Alamos concerning the documentation for the
                    disposal of Federally-owned computers. We requested
                    documentation on all excessed Federally-owned personal property
                    since the beginning of the Cooperative Agreement. The combined
                    records of both the Fire Department and Los Alamos showed a
                    total of 76 Federally-owned computers excessed. Fire Department
                    records did not account for 35 of the 76 excessed computers, and
                    Los Alamos records did not account for 7 of the 76 excessed
                    computers.

PROTECTION OF       During the course of our inspection, concerns were raised that
FEDERAL SENSITIVE   Sensitive Unclassified Information provided to the Fire
UNCLASSIFIED        Department by Los Alamos may not have been adequately
INFORMATION         protected. We added this issue to the scope of our review. We
                    found that the Fire Department may not have been adequately
                    protecting Sensitive Unclassified Information in its possession.
                    Federal officials were aware of cyber security weaknesses related
                    to the protection of Sensitive Unclassified Information provided to
                    the County. However, in spite of specific suggestions to do so, the
                    Los Alamos Site Office (Site Office) did not require the Fire
                    Department to strengthen protective measures.

                    The Fire Department was provided Sensitive Unclassified
                    Information, to include Hazards Analyses and Los Alamos
                    Complex Response Guides. This information was provided to
                    assist the Fire Department in protecting Los Alamos in the event of
                    a fire. The documents provided to the Fire Department were in the
                    form of electronic media and were marked as either Official Use
                    Only or Unclassified Controlled Nuclear Information. We were
                    told that this Sensitive Unclassified Information was also stored on
                    County servers and that the Fire Department maintained a wireless
                    network which was used to update information on Federally-
                    owned laptop computers located in Fire Department vehicles.

                    The County has security measures in place such as log-on
                    authentication and password protection for computers in its
                    possession. We were told that the County encrypted data located
                    on its servers, as well as data transmitted over data lines and a
                    wireless network. While we did not test the effectiveness of these
                    security measures, we did find that there were existing concerns
                    about whether Sensitive Unclassified Information in possession




Page 5                                                              Details of Finding
         of the Fire Department was adequately protected. Specifically,
         concerns over the protection of Sensitive Unclassified Information
         by the County surfaced in a 2009 review conducted by a Los
         Alamos Security Inquiry Team. This review was initiated after a
         Site Office official conducted a walk-through at a County fire
         station and found Unclassified Controlled Nuclear Information
         unprotected in an open area.

         In a December 2009 report titled Providing Sensitive Unclassified
         Information (SUI) to Los Alamos Fire Department (LAFD), the
         Inquiry Team reported that the County's Wireless Encrypted
         Protection system was the common standard at the time the routers
         were purchased more than 5 years prior to the review. The Inquiry
         Team reported that this was an old technology and that the
         encryption algorithm had made its compromise possible for a
         knowledgeable adversary "for some time." The Inquiry Team also
         reported that there was a desire on the part of County
         Administration to dispense with the County's policy for encrypting
         laptops on emergency vehicles which contained Sensitive
         Unclassified Information. The Inquiry Team cautioned that using
         unencrypted laptops would not assure Los Alamos' sensitive
         information is properly protected.

         While the Inquiry Team found that it was unlikely there had been
         an unauthorized release of Sensitive Unclassified Information, a
         number of suggestions were made to the Site Office for actions
         that the Fire Department could take to preclude the unauthorized
         release of sensitive information. These suggestions included
         updating encryption protocol for wireless routers and additional
         cyber security training for Fire Department employees. However,
         through interviews with Site Office and Fire Department officials,
         we determined that the Site Office had not required the Fire
         Department to implement the suggested changes.

         We also found that the Cooperative Agreement was silent on the
         protection of Sensitive Unclassified Information. NNSA has
         developed policy to address the protection of this type of
         information. NNSA Policy Letter 14.1-C (NAP 14.1-C), Baseline
         Cyber Security Program, dated May 2, 2008, required that
         responsibilities be assigned for protecting information on
         information systems for the purpose of maintaining National
         Security and ensuring the continuity of NNSA operations. This
         NAP 14.1-C addressed areas such as: cyber security plans;
         incident and vulnerability management; password generation and
         protection; wireless technologies; and, remote accessing. In
         conjunction with NAP 14.1-C, NNSA also developed NAP 14.2-C,
         NNSA Certification and Accreditation (C&A) Process for


Page 6                                                   Details of Finding
               Information Systems, which further detailed NNSA's cyber security
               requirements. However, none of the provisions of these policies
               were incorporated into the Cooperative Agreement.

               Given the issues reported by the Inquiry Team and the lack of
               cyber security provisions in the Cooperative Agreement,
               appropriate cyber security requirements should be incorporated
               into the Cooperative Agreement so that NNSA's requirements for
               the protection of Sensitive Unclassified Information are clear and
               that County security measures are consistent with those
               requirements.

CONTRIBUTING   The problems discussed in this report occurred, in part, because
FACTORS AND    NNSA did not ensure that the property management provisions,
IMPACT         which were part of the Cooperative Agreement, had been
               effectively implemented. Although DOE Order 580.1 applied to
               the Fire Department's management of Federally-owned personal
               property, NNSA did not include specific reference to DOE Order
               580.1 in the Cooperative Agreement. Instead, NNSA incorporated
               Appendix D, Personal Property Management Plan for Federally-
               Owned Personal Property, into the Cooperative Agreement. The
               Plan, as written, did not rise to the level of the requirements
               contained in DOE Order 580.1. According to the author of the
               Plan, the language in Appendix D was meant to be a "guide."
               Unfortunately, the intention that the County was to expand on the
               "guide" was never realized. In addition, there was no specific
               requirement to update Appendix B of the Cooperative Agreement
               on a routine basis as new Federally-owned personal property was
               acquired and as property was excessed, further resulting in a lack
               of proper accountability.

               In addition, the County did not manage its Federally-owned personal
               property in a manner consistent with the requirements of the
               Cooperative Agreement. Further, the Fire Department did not always
               implement County directives to ensure the proper control and
               accountability of Federally-owned personal property in its possession.
               As discussed in this report, there was no evidence that the provisions
               of the County Fire Chief Directive on Lost, Stolen, or Damaged
               Personal Government Owned Property had ever been implemented,
               even though the results of the 2010 inventory showed that more than
               10 percent of the inventoried items could not be located. In addition,
               we could not independently verify the effectiveness of the Fire
               Department's process for notifying NNSA about the acquisition of
               Federally-owned personal property, to include the use of the Property
               Data Worksheet. Also, there was no evidence that the Fire
               Department's use of the Excess/Salvage Equipment Request form



Page 7                                                         Details of Finding
                  provided a comprehensive and accurate record for the disposition of
                  all excessed Federally-owned personal property.

                  Finally, NNSA did not ensure that all requisite provisions for cyber
                  security were incorporated into the Cooperative Agreement.
                  Specifically, the Business Services Division, NNSA Albuquerque
                  Complex, did not incorporate most of the NNSA Policy Letter
                  provisions into the Cooperative Agreement or require the Fire
                  Department to adhere to any of NNSA's cyber security requirements.
                  Instead, existing County security measures were relied upon, even
                  though concerns about the ability of those measures to preclude the
                  potential for unauthorized release of Sensitive Unclassified
                  Information had been identified.

                  As a consequence, these problems created an environment where
                  Federally-owned personal property could be subject to misuse,
                  theft or misappropriation. Specifically, we could not determine,
                  with any certainty, that all Federally-owned personal property was
                  identified, marked, inventoried and disposed of in a manner
                  consistent with DOE Order 580.1. In addition, these problems
                  created an environment where Sensitive Unclassified Information
                  provided to the County could potentially be subject to loss or
                  compromise. Specifically, we could not reach a definitive
                  conclusion regarding the overall level of protection provided to the
                  Sensitive Unclassified Information which was in the hands of the
                  Fire Department.

RECOMMENDATIONS   We recommend that the Contracting Officer, Business Services
                  Division:

                     1. Incorporate appropriate provisions of DOE Order 580.1,
                        Department of Energy Personal Property Management
                        Program, into the Cooperative Agreement;

                     2. Ensure that the Fire Department's Property Management
                        Plan is revised as necessary, consistent with the
                        conclusions of NNSA's 2010 inventory validation review;

                     3. Ensure that Appendix B of the Cooperative Agreement is
                        updated on a routine basis as Federally-owned personal
                        property is acquired and excessed; and,

                     4. Incorporate appropriate cyber security requirements into
                        the Cooperative Agreement so that NNSA requirements for
                        the protection of Sensitive Unclassified Information are
                        clear and that County security measures are consistent with
                        those requirements.


Page 8                                                          Recommendations
             We also recommend that the Manager, Los Alamos Site Office,
             ensure that:

                5. The Fire Department reports lost or stolen items as required
                   by DOE Order 580.1 and the Cooperative Agreement;

                6. All personal property acquired by the County using Federal
                   funds is accounted for in a manner consistent with the
                   Cooperative Agreement; and,

                7. All excess Federally-owned personal property in possession
                   of the County is disposed of in a manner consistent with the
                   Cooperative Agreement.

MANAGEMENT   NNSA management agreed with the intent of the report findings
COMMENTS     and recommendations directed to the Contracting Officer, Business
             Services Division. Management stated that NNSA will start
             negotiations to amend the Cooperative Agreement to ensure that
             the actions under Recommendations 1 through 4 are implemented.

             However, management said that Recommendations 5 through 8
             directed to the Manager, Los Alamos Site Office, were not
             consistent with the Site Office's administrative authorities under
             the Cooperative Agreement. Management further stated that,
             while the County has agreed to the inclusion of several operational
             and administrative provisions in the Cooperative Agreement,
             NNSA does not have any specific authority to direct or enforce
             compliance with those provisions. Management stated that it
             remains in the Government's best interest to try to resolve or
             mitigate these issues. Therefore, the Site Office is actively seeking
             appropriate modifications to the Cooperative Agreement to
             establish appropriate compliance with Department requirements.
             In addition, management stated that, in the interim, NNSA will
             continue working with County leadership to encourage voluntary
             compliance.

             Management cited a "just executed key modification" to the
             Cooperative Agreement on December 16, 2011, that addressed
             several of the issues raised in the report. Management stated that it
             anticipated that NNSA and the Site Office will complete several
             additional Cooperative Agreement modifications in the coming
             months that will fully address the identified concerns.

             Management requested that we delete or rewrite Recommendations
             5 through 8 to reflect the potentially limited authorities inherent in
             this type of agreement.



Page 9                                               Management Comments
            Management comments have been provided in their entirety in
            Appendix 3.

INSPECTOR   Management comments are generally responsive to our report
COMMENTS    findings and recommendations. However, we do note that
            Title 2, Code of Federal Regulations, Grants and Agreements,
            provides the authority to enforce this type of agreement with
            specific remedies for noncompliance. In addition, the modification
            to the Cooperative Agreement on December 16, 2011, did not
            address the issues raised in the report. In order to clarify
            management's position, we discussed these issues with NNSA
            subsequent to receiving comments on the report. We were told
            that management plans on issuing five modifications in the near
            future that will include the necessary language to provide NNSA
            with the authority to enforce the provisions of the Cooperative
            Agreement. We believe these actions will meet the intent of our
            recommendations if the modifications are issued with additional
            language to strengthen NNSA's authority to enforce compliance;
            and if, in the interim, NNSA works with County leadership to
            encourage voluntary compliance.

            With regard to NNSA's request to delete or rewrite
            Recommendations 5 through 8, we deleted former
            Recommendation 5 because Recommendation 1, if properly
            implemented, should address the Recommendation's intent. We
            also modified former Recommendations 7 and 8 to address
            NNSA's comment. Recommendation 6 remains intact.




Page 10                                                Inspector Comments
Appendix 1

                                          OTHER MATTERS

Sexually Oriented   During the examination of three hard drives that were turned in by
Images              the Los Alamos County Fire Department (Fire Department) for
                    disposal, we found a number of sexually oriented images. Under
                    Department of Energy (DOE) Order 203.1, Limited Personal Use of
                    Government Office Equipment Including Information Technology,
                    examples of misuse of Government resources include "creating,
                    downloading, viewing, storing, copying or transmitting sexually
                    explicit or sexually oriented materials." However, the Cooperative
                    Agreement only required Fire Department employees to "ensure the
                    safe and appropriate use and safeguarding of Federally-owned
                    personal property," and stated that Federally-owned personal
                    property could only be used when performing official Government
                    work or for incidental personal, professional or community use. The
                    Cooperative Agreement did not identify the creating, downloading,
                    viewing, storing, copying or transmitting of sexually explicit or
                    sexually oriented materials as a specific misuse of the Federally-
                    owned personal property provided to the Fire Department.

Questioned Costs    The Cooperative Agreement provides for sharing costs between the
                    National Nuclear Security Administration (NNSA) and the
                    Incorporated County of Los Alamos (County). NNSA's share of
                    the costs is approximately $80.1 million and the County's share is
                    approximately $19.8 million. The Business Services Division,
                    NNSA Albuquerque Complex, questioned certain costs incurred by
                    the County for the first two years of the Cooperative Agreement
                    (October 2008 through September 2010). Specifically, the County
                    reported $35.9 million of total costs incurred by the Fire
                    Department, of which $28.8 million was billed to NNSA for
                    reimbursement under the Cooperative Agreement. The Business
                    Services Division reviewed the monthly invoices to determine
                    whether the costs were allowable, reasonable and allocable to the
                    Cooperative Agreement. The Business Services Division
                    questioned costs totaling $621,613, as shown in the Table below:

                                            Total Questioned Costs

                           Fiscal                      Invoiced      Questioned
                           Year      Total Costs       Amount          Costs

                           2009      $17,514,961     $13,978,318       $82,890

                           2010      $18,343,933     $14,853,241      $538,723

                           Total     $35,858,894     $28,831,559      $621,613



Page 11                                                               Other Matters
Appendix 1 (continued)

                          The bulk of the costs questioned by the Business Services Division
                          in Fiscal Year (FY) 2009 related to the September 2009 invoice in
                          which the County billed NNSA for $1,312,186 (of the $13,978,318
                          for the year). The Business Services Division questioned $60,762
                          (of the $82,890 in questioned costs) for the purchase of radios.
                          The County's explanation to NNSA was that the purchase of 19
                          two-way radios was necessary for the Fire Department's
                          communication systems. These radios were provided to new
                          cadets and purchased to replace old radios. Each year the Fire
                          Department seeks to replace approximately one-third of its radios,
                          as each radio has a useful life of approximately 3 years.

                          The bulk of questioned costs identified by the Business Services
                          Division in FY 2010 related to the October 2009 invoice in which
                          the County billed NNSA for $1,542,825 (of the $14,853,240 for
                          the year). With regard to this invoice, the Business Services
                          Division questioned $378,116 (of the $538,723 in total questioned
                          costs for FY 2010). For example, the Business Services Division
                          questioned about $180,000 related to medical equipment and about
                          $78,000 related to emergency dispatch communications
                          equipment. We determined that the Business Services Division
                          questioned the equipment purchases because the amount did not
                          appear reasonable. The County subsequently provided detailed
                          information regarding the use of the equipment by the Fire
                          Department. The Business Services Division also questioned
                          $45,631 related to payroll for firefighters whose badges had been
                          suspended, and, therefore, were unable to fight fires within
                          restricted areas of the Los Alamos National Laboratory as required
                          by the Cooperative Agreement. At the time of our inspection,
                          NNSA and the County had not resolved the $621,613 in
                          questioned costs.

                          It should be noted that, in addition to the $621,613 in questioned
                          costs discussed above, NNSA also withheld 20 percent of costs
                          claimed on monthly billings during FY 2010, making the total
                          amount of unresolved questioned costs $2.3 million.

SUGGESTED ACTIONS With regard to the issue of sexually oriented images on Federally-
                  owned computers, we suggest that the Contracting Officer,
                  Business Services Division:

                             1. Ensure that the provisions of DOE Order 203.1 are
                                incorporated into the Cooperative Agreement to provide
                                specific information on the misuse of Government
                                resources.




Page 12                                                                       Other Matters
Appendix 1 (continued)

                    In addition, given the fact that questioned costs had not been
                    resolved at the time of our review, we suggest that the Contracting
                    Officer, Business Services Division:

                         2. Resolve questioned costs with the County in a more
                            expeditious manner.




Page 13                                                           Suggested Actions
Appendix 2

OBJECTIVE     We initiated this inspection to determine if Federally-owned
              personal property under the Cooperative Agreement was
              adequately managed. During the course of our inspection,
              concerns were raised that Sensitive Unclassified Information
              provided to the Los Alamos County Fire Department by Los
              Alamos National Laboratory may not have been adequately
              protected. We added this issue to the scope of our review.

SCOPE         We conducted this inspection from January 2011 through January
              2012 at the Los Alamos National Laboratory (Los Alamos),
              Incorporated County of Los Alamos (County) and Los Alamos
              County Fire Department (Fire Department) in Los Alamos, New
              Mexico; and the National Nuclear Security Administration
              (NNSA) Albuquerque Complex in Albuquerque New Mexico.

METHODOLOGY   To accomplish the inspection objectives, we interviewed officials
              from Los Alamos, the County, the Department of Energy
              (Department or DOE) and NNSA. In addition, we reviewed and
              analyzed the Cooperative Agreement, including modifications, and
              the following regulations and policies:

                   •   Title 10, Code of Federal Regulations, Part 600.232,
                       Department of Energy Financial Assistance Rules,
                       Equipment;

                   •   Title 2, Code of Federal Regulations, Grants and
                       Agreements;

                   •   DOE Order 203.1, Limited Personal Use of Government
                       Office Equipment Including Information Technology;

                   •   DOE Order 580.1, Department of Energy Personal
                       Property Management Program; and,

                   •   NNSA Policy Letter 14.1-C, NNSA Baseline Cyber
                       Security Program.

              We also reviewed:

                   •   Fire Department Excess/Salvage Equipment Request
                       forms;

                   •   Relevant Los Alamos and NNSA Memoranda, and the
                       Department, NNSA, Los Alamos and Fire Department
                       electronic mail;



Page 14                                  Objective, Scope and Methodology
Appendix 2 (continued) ______________________________________

                        •   Los Alamos Fire Chief Directives on: Government
                            Owned Property Held by Los Alamos County; Lost,
                            Stolen, or Damaged Personal Government Owned
                            Property; and, Acknowledgement of Receipt of Goods;
                            and,

                        •   Three Federally-owned hard drives utilized by the Fire
                            Department.

                   This was a joint audit and inspection effort. The audit of incurred
                   costs was conducted in accordance with generally accepted
                   Government auditing standards. Also, the inspection on property
                   management and protection of Sensitive Unclassified Information
                   was conducted in accordance with the Council of the Inspectors
                   General on Integrity and Efficiency, Quality Standards for
                   Inspection and Evaluation, January 2011. Those standards require
                   that we plan and perform the review to obtain sufficient,
                   appropriate evidence to provide a reasonable basis for our findings
                   and conclusions based on our objectives. We believe the evidence
                   obtained provides a reasonable basis for our findings and
                   conclusions based on our inspection objectives. The review
                   included tests of controls and compliance with laws and
                   regulations to the extent necessary to satisfy the objectives.
                   Because our review was limited, it would not necessarily have
                   disclosed all internal control deficiencies that may have existed at
                   the time of our inspection. In addition, we relied on computer-
                   processed data to some extent to satisfy our objective related to
                   property management. We confirmed the validity of such data, as
                   appropriate, by conducting interviews and reviewing source
                   documents.

                   The Exit Conference was waived by NNSA.




Page 15                                        Objective, Scope and Methodology
Appendix 3
             MANAGEMENT COMMENTS




Page 16                            Management Comments
Appendix 3 (continued)_______________________________________




Page 17                                     Management Comments
Appendix 4________________________________________________

                                     PRIOR REPORTS

  •   Audit Report on The Federal Energy Regulatory Commission's Unclassified Cyber
      Security Program – 2011 (OAS-M-12-01, November 2011). The Federal Information
      Security Management Act of 2002 (FISMA) established requirements for Federal
      agencies related to the management and oversight of information security risks and to
      ensure that information technology resources were adequately protected. As directed by
      FISMA, the Office of Inspector General (OIG) conducted an independent evaluation of
      the Federal Energy Regulatory Commission's (Commission) unclassified cyber security
      program to determine whether it adequately protected data and information systems. The
      Commission had taken actions to improve its cyber security posture and mitigate risks
      associated with certain issues identified during our Fiscal Year (FY) 2010 evaluation.
      While these measures are noteworthy, our current evaluation disclosed that additional
      action is needed to further protect information systems and data. Specifically, we
      continued to identify weaknesses related to the Commission's timely remediation of
      software vulnerabilities. The problems we identified were due, in part, to less than fully
      effective implementation of cyber security policies and procedures. In particular,
      Commission officials informed us that they did not follow their existing Vulnerability
      Management Program policies due to budget and resource constraints. Although the
      Commission continued to make progress in improving its cyber security posture,
      additional actions are needed to further reduce the risk to the agency's information
      systems and data.

  •   Audit Report on The Department's Unclassified Cyber Security Program – 2011
      (DOE/IG-0856, October 2011). FISMA provides direction on the development,
      implementation and management of an agency-wide information security program to
      provide protection commensurate with risk for Federal information and systems,
      including those managed by another agency or contractors. In accordance with FISMA,
      the OIG conducted its annual independent evaluation to determine whether the
      Department of Energy's (Department) unclassified cyber security program adequately
      protected its information and systems. Our evaluation disclosed that the Department had
      taken steps to enhance its unclassified cyber security program, including resolving 11 of
      35 cyber security weaknesses identified during our FY 2010 evaluation. However,
      additional action is needed to further strengthen the Department's unclassified cyber
      security program and help address threats to its information and systems. Our evaluation
      disclosed numerous weaknesses in the areas of access controls, vulnerability management
      web application integrity, contingency planning, change control management and cyber
      security training. The weaknesses identified occurred, in part, because Departmental
      elements had not ensured that cyber security requirements included all necessary
      elements and were properly implemented. Program elements also did not always utilize
      effective performance monitoring activities to ensure that appropriate security controls
      were in place.




Page 18                                                                          Prior Reports
Appendix 4 (continued)_______________________________________

  •   Inspection Report on Fire Suppression and Related Services at Los Alamos National
      Laboratory (DOE/IG-821, September 2009). The Department's Los Alamos National
      Laboratory (Los Alamos) is a multidisciplinary research institution engaged in strategic
      science on behalf of national security. Los Alamos operates in "unique" hazard
      environments, to include special nuclear materials, explosives, and hazardous chemicals,
      that create special fire suppression and emergency management challenges. To address
      these challenges, Los Alamos must have a comprehensive approach to the protection of
      personnel, facilities, physical assets and programmatic activities from fire and related
      dangers. Information was provided to the OIG that problems existed with regard to fire
      suppression and related services at Los Alamos. As a result, we initiated an inspection to
      determine if fire suppression and related services at Los Alamos are assured through
      contractual arrangements with the Incorporated County of Los Alamos (County). On
      September 30, 2008, subsequent to the initiation of our inspection, the National Nuclear
      Security Administration (NNSA) entered into a Cooperative Agreement with the County
      to provide Los Alamos County Fire Department (Fire Department) and related services to
      Los Alamos. We concluded that fire suppression and related services had not been
      assured through contractual arrangements with the County. Specifically, we found that:
      fire fighters had not been properly trained; required pre-incident plans developed by the
      Fire Department lacked necessary information; fire fighters did not have necessary
      knowledge of Los Alamos facilities; and, the Fire Department's fire fighting capabilities
      have not been sufficiently demonstrated through exercises. We concluded that the above
      conditions were caused by significant problems with the administration of the contracting
      arrangements by the Department, NNSA, Los Alamos, and the County. We did not find
      evidence that anyone actively managed the fire suppression services contract for a
      number of years.




Page 19                                                                          Prior Reports
                                                                    IG Report No. DOE/IG-0859

                               CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

    1. What additional background information about the selection, scheduling, scope, or
       procedures of the audit or inspection would have been helpful to the reader in
       understanding this report?

    2. What additional information related to findings and recommendations could have been
       included in the report to assist management in implementing corrective actions?

    3. What format, stylistic, or organizational changes might have made this report's overall
       message clearer to the reader?

    4. What additional actions could the Office of Inspector General have taken on the issues
       discussed in this report which would have been helpful?

    5. Please include your name and telephone number so that we may contact you should we
       have any questions about your comments.



Name __________________________________ Date ________________________

Telephone ______________________________ Organization __________________


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact our office at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
                                Internet at the following address:

              U.S. Department of Energy Office of Inspector General Home Page
                                    http://energy.gov/ig

  Your comments would be appreciated and can be provided on the Customer Response Form
                                 attached to the report.
